       DEFENSE DEPARTMENTAL REPORTING SYSTEMS
            - AUDITED FINANCIAL STATEMENTS


Report No. D-2001-165                    August 3, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFS                   Audited Financial Statements
DFAS                  Defense Finance and Accounting Service
OMB                   Office of Management and Budget
USD(Comptroller)      Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2001-165                                                      August 3, 2001
   (Project No. D2001FI-0018.004)

             Defense Departmental Reporting System – Audited
                           Financial Statements

                                    Executive Summary

Introduction. This audit is in response to the Chief Financial Officers Act of 1990, as
amended by the Federal Financial Management Act of 1994. The Chief Financial
Officers Act requires the Inspector General, DoD, to audit the financial statements of
DoD organizations in accordance with generally accepted Government auditing
standards. This is the third in a series of reports related to the FY 2000 DoD Agency-
Wide Financial Statements. The first report discusses the adequacy of internal controls
and compliance with laws and regulations for the financial statements. The second
report discusses the Financial Management Improvement Plan.

The Audited Financial Statements module of the Defense Departmental Reporting
System incorporates the financial statement compilation process into a single system,
which allows financial statements to be shared throughout the Department of Defense
community. Data from the accounting systems are transmitted to the Audited Financial
Statement module of the Defense Departmental Reporting System by importing Excel
trial balance spreadsheets. After the transmission, if a duly authorized official has
identified any errors through analysis, reasonableness checks, or quality control
procedures, a correcting journal voucher must be prepared. After all of the journal
vouchers are recorded, the financial statements are produced.

Objectives. Our overall objective was to determine whether the FY 2000 DoD
Agency-Wide Financial Statements were presented fairly in accordance with the Office
of Management and Budget Bulletin No. 97-01, “Form and Content of Agency
Financial Statements,” October 16, 1996, as amended. The specific audit objective was
to determine whether the internal controls of the Audited Financial Statements module
of the Defense Departmental Reporting System used to compile the DoD financial
statements were adequate. We also reviewed the management control program as it
related to the overall objective.

Results. The Defense Finance and Accounting Service made uncontrolled or
unnecessary adjusting accounting entries when compiling the DoD financial statements
for FY 2000. The Defense Finance and Accounting Service made $219 billion in
undocumented changes to the trial balance data before the data were imported into the
Audited Financial Statements module. The Defense Finance and Accounting Service
also processed 172 accounting entries valued at about $203 billion without the
appropriate levels of supervisory review. In addition, the Defense Finance and
Accounting Service made accounting entries valued at $224.7 billion to correct
deficiencies in the crosswalks that place financial data on the correct financial statement
line. As a result, the FY 2000 DoD Agency-Wide Financial Statements contained
unreliable financial data. See the Finding section for details on the audit results.
Summary of Recommendations. We recommend that the Director, Defense Finance
and Accounting Service, enforce existing Defense Finance and Accounting Service
regulations and guidance on preparation of journal vouchers and thresholds of
appropriate approval. We also recommend that the Director, Defense Finance and
Accounting Service, test the entire flow of financial statement information to ensure
crosswalk accuracy and to correct any identified deficiencies in the Audited Financial
Statements module prior to the compilation of the FY 2001 financial statements.

Management Comments. The Defense Finance and Accounting Service concurred
with emphasizing the need to document all accounting entries, and enforcing
appropriate levels of supervisory review through the means of a warning when an
accounting entry is approved by a person without the necessary authority. The Defense
Finance and Accounting Service agreed to test the entire flow of accounting
transactions by verifying the internal crosswalks before the FY 2001 statements were
prepared. See the Finding section for a discussion of management comments and the
Management Comments section for the complete text.




                                           ii
Table of Contents

Executive Summary                                       i


Introduction
     Background                                         1
     Objectives                                         3

Findings
     Defense Departmental Reporting System – Audited
       Financial Statements                            4

Appendixes
     A. Audit Process
         Scope                                         10
         Methodology                                   11
         Management Control Program Review             11
         Prior Coverage                                12
     B. Report Distribution                            13

Management Comments
     Defense Finance and Accounting Service            15
Background
    This report is the third in a series of reports related to the DoD Agency-Wide
    financial statements for FY 2000. This report discusses the internal controls of
    the Defense Departmental Reporting System – Audited Financial Statements
    module. The first report discusses the adequacy of internal controls and
    compliance with laws and regulations for the financial statements. The second
    report discusses the Financial Management Improvement Plan.

    Reporting Requirements. Public Law 101-576, the Chief Financial Officers
    Act of 1990, November 15, 1990, as amended by Public Law 103-356, the
    Federal Financial Management Act of 1994, October 13, 1994, requires DoD to
    prepare annual audited financial statements. In addition, the Federal Financial
    Management Act of 1994 requires the Secretary of the Treasury, in coordination
    with the Director, Office of Management and Budget (OMB), to prepare
    financial statements for all activities including Government-wide financial
    statements. OMB Bulletin No. 01-02, “Audit Requirements for Federal
    Financial Statements,” dated October 16, 2000, as revised by OMB
    memorandum, January 4, 2001, establishes the minimum requirements for
    audits of these financial statements.

            Accounting Functions and Responsibilities. The Under Secretary of
    Defense (Comptroller) [USD(Comptroller)], as the Chief Financial Officer, is
    responsible for overseeing the preparation of agency-wide financial statements
    and establishing financial management policies and guidelines within DoD. The
    Defense Finance and Accounting Service (DFAS) performs accounting functions
    and prepares financial statements for DoD. DFAS, USD(Comptroller), and the
    DoD Components are responsible for the DoD financial statements. DFAS
    operates under the control and direction of the USD(Comptroller). DFAS is
    responsible for entering information from DoD entities into financial systems,
    operating and maintaining the financial systems, and ensuring the continued
    integrity of the information entered. DoD entities are responsible for providing
    accurate financial information to DFAS.

           FY 2000 DoD Agency-Wide Financial Statements. The FY 2000 DoD
    Agency-Wide Financial Statements consisted of the consolidated Balance Sheet,
    consolidated Statement of Net Cost, consolidated Statement of Changes in Net
    Position, combined Statement of Budgetary Resources, and combined Statement
    of Financing, along with the supporting footnotes, supplementary schedules, and
    a management overview. The FY 2000 DoD Agency-Wide Consolidated
    Balance Sheet reported total assets of $616.7 billion and total liabilities of
    $1,002.8 billion as of September 30, 2000. The FY 2000 DoD Agency-Wide
    Consolidated Statement of Net Cost reported net program costs of about
    $374.9 billion for the fiscal year ending September 30, 2000. The combined
    Statement of Budgetary Resources reported total program costs of about
    $656.1 billion.

    Defense Departmental Reporting System. The Defense Departmental
    Reporting System is a DFAS critical system under development. The system
    was designed to satisfy the need for a financial management system to support
                                        1
DoD’s appropriation level control, financial reporting, and financial analysis.
DoD began fielding the Defense Departmental Reporting System in December
1999. The Audited Financial Statement (AFS) module was the first module
completed and was used to compile the FY 2000 financial statements. The AFS
module is scheduled to be fully operational by September 2002. The
USD(Comptroller) estimated cost to fully field the Defense Departmental
Reporting System is $27.9 million.

Audited Financial Statement Module. The AFS module of the Defense
Departmental Reporting System incorporates the financial statement compilation
process into a single system that allows financial statements to be used
throughout the DFAS community. The AFS module relies on the data from
accounting systems to be accurate and compliant because the module receives
beginning balances and current-year transactions from those systems. For the
AFS module to be populated, DFAS personnel must complete a series of steps.
The following figure shows the flow of financial statement information from the
accounting systems through the AFS module and to the financial statements:




       Accounting      Excel Import         AFS           Financial
        Systems        Spreadsheets        Module        Statements




                                           Adjusting
                                          Accounting
                                            Entries


Flow of Financial Statement Information

First, accounting systems convert accounting data that use the DoD chart of
accounts into the U.S. Government Standard General Ledger chart of accounts
with attributes. Attributes identify information that is subsidiary to the basic
four-digit U.S. Government Standard General Ledger accounts. Then, each
U.S. Government Standard General Ledger account is assigned to the
appropriate financial statement. After that action is complete, the beginning
balance data are converted to an import spreadsheet with appropriate format and
file type and transmitted to the AFS module by a file transfer protocol Excel
macro at the Defense Enterprise Computing Center. After transmission, if a
duly authorized official has identified any errors through analysis,
reasonableness checks, or quality control procedures, DFAS personnel must
prepare a correcting journal voucher. After all of the journal vouchers are
recorded, the financial statements are produced.




                                      2
Objectives
     Our overall objective was to determine whether the FY 2000 DoD Agency-Wide
     Financial Statements were presented fairly in accordance with OMB Bulletin
     No. 97-01, “Form and Content of Agency Financial Statements,”
     October 16, 1996, as amended. The specific audit objective was to determine
     whether the internal controls of the AFS module of the Defense Departmental
     Reporting System used to compile the DoD Financial Statements were adequate.
     We also reviewed the management control program as it related to the overall
     objective. Appendix A discusses the scope and methodology related to the audit
     objectives, the management control program, and prior audit coverage.




                                       3
             Defense Departmental Reporting System
             – Audited Financial Statements
             DFAS made uncontrolled or unnecessary adjusting accounting entries
             when compiling the DoD financial statements for FY 2000. DFAS made
             $219 billion in undocumented adjustments to trial balances imported into
             the AFS module. DFAS personnel also made at least 172 accounting
             entries, valued at about $203 billion, without the appropriate levels of
             supervisory review. In addition, DFAS recorded accounting entries for
             about $224.7 billion to correct errors in the crosswalks that place
             financial data on the correct financial statement line. The errors
             occurred because the AFS module did not fully implement existing
             DFAS guidance on accounting entries. In addition, DFAS did not
             adequately test the financial statement crosswalks in the AFS module
             before fielding to determine whether the crosswalks complied with the
             U.S. Government Standard General Ledger. As a result, the FY 2000
             DoD Agency-Wide Financial Statements contained unreliable financial
             data.

Imported Trial Balance Data
    DFAS made $219.0 billion in undocumented adjustments to trial balances after
    data were imported into the AFS module. The Director, DFAS Arlington,
    issued a memorandum in October 1999 that provided guidance on the use and
    preparation of the journal vouchers. Specifically, the guidance included
    requirements for documenting, reviewing for accuracy, and approving journal
    vouchers. On August 2, 2000, the Director, DFAS Arlington, issued another
    memorandum that emphasized the requirements for implementing the October
    1999 guidance. The Defense Finance and Accounting Service Memorandum,
    “Journal Vouchers Guidance,” August 2, 2000, states the following:
                When the duly authorized official has identified errors through
                analysis, reasonableness checks, or quality control procedures, a
                correcting journal voucher must be prepared. Evidence to support
                this type of journal voucher may include a detailed listing of identified
                errors, narrative explaining how it is known that the original entry is
                incorrect, a related analysis documenting the calculation of the correct
                amount, and the sources of the data that were used in the analysis.

    Undocumented adjustments of $219 billion occurred because the AFS module
    did not fully implement existing DFAS guidance on accounting entries. DFAS
    made the following undocumented changes directly to the trial balance import
    spreadsheets.

         •    The Other Defense Organizations General Fund had two changes to the
              trial balance import spreadsheets totaling $196.4 billion. DFAS
              Indianapolis personnel established beginning balances for two accounts
              that were new for FY 2000.

                                               4
     •   The Army General Fund had one undocumented change valued at
         $16.7 billion to the trial balance import spreadsheet. For example,
         DFAS Indianapolis changed $12.3 billion from ending equity to
         beginning equity.

     •   The Navy Working Capital Fund had $2.9 billion in debit and
         $3 billion in credit differences between the Central Database
         accounting system ending trial balance amounts and the AFS module
         trial balance amounts. The Central Database accounting system
         produces department-level reports for the Navy Working Capital Fund.

Consequently, controls over the preparation of the DoD Agency-Wide financial
statements were unreliable, and the FY 2000 DoD Agency-Wide Financial
Statements contained unreliable data. Regardless of the origin of the change to
financial data, any change should be properly documented to create an adequate
audit trail. DoD Regulation 7000.14-R, “DoD Financial Management
Regulation, volume 6A, Reporting Policy and Procedures,” December 2000,
states that DoD Components shall ensure that audit trails are maintained in
sufficient detail to permit tracing of transactions with a unique identity from
source to inclusion in the AFS module beginning balance.

However, not all changes made to the trial balance import spreadsheets went
undocumented. Other Defense Organizations Working Capital Fund personnel
documented two adjustments made to the import spreadsheets. The
documentation contained an explanation, approval, and date and time. For
example, Other Defense Organizations Working Capital Fund personnel
prepared a journal voucher stating that prior period adjustments made by the
Chief Financial Officers Team included posting errors from import sheets,
reclassifying expenses, eliminating seller side entries, and balancing
agency-wide statements for a total of $2.2 billion.

Whether the change occurred in the AFS module directly or outside in one of
the accounting systems, an adequate audit trail must be maintained. Import
spreadsheets can be entered more than once, which allows the data to be
changed without creating a journal voucher within the AFS module. This was
accomplished by personnel of Other Defense Organizations Working Capital
Fund, as noted above. DFAS guidance clearly states that documentation should
be provided for any change made to financial statement data, regardless of
origin. DFAS should fully implement the existing DFAS journal voucher
guidance on preparation of adjustments.




                                   5
Approval of Accounting Entries
    DFAS personnel made at least 172 accounting entries valued at about
    $203 billion that did not receive the appropriate level of review. The Defense
    Finance and Accounting Service Memorandum, “Journal Voucher Guidance,”
    August 2, 2000, discusses the types of journal vouchers, when and how to use
    each type, the appropriate support that should accompany each journal voucher,
    and the approval necessary to ensure the proper entry of journal vouchers.
    DFAS guidance states that the approval of the journal voucher also constitutes
    acceptance of the supporting documentation. The following thresholds in
    Table 1 determine the proper approving official:

     Table 1. Threshold for Determining Proper Approving Official

         Dollar Amount                         Approving Official
     Under $100 million          Team Leaders, General Fund or Working
                                 Capital Fund Reporting Branch
     $100 - $500 million         Chief, Procedures and Reporting, Office of
                                 Chief Financial Officer
     $500 million - $1 billion   Entity Director for Accounting
     Over $1 billion             Entity Director

    A journal voucher is approved with an electronic signature. DFAS personnel
    established a journal voucher approval role within the AFS module. The role
    has the authority to approve, disapprove, or cancel a journal voucher. DFAS
    personnel did not distinguish between levels of approval within the journal
    voucher approval role; as a result, journal vouchers were processed without the
    proper threshold of approval. For example, the Army General Fund contained
    $155.9 billion of improperly approved journal vouchers, of which $131.2 billion
    should have been approved by the Entity Director.

    The adjustments occurred because DFAS personnel did not fully implement
    existing DFAS guidance concerning accounting entries using the AFS module.
    DFAS personnel did not adhere to the thresholds for determining the proper
    approving official established in the journal voucher guidance. For example,
    the Team Leader could approve a journal voucher over $1 billion. A journal
    voucher should not be able to influence the financial statement data without the
    proper approval official’s signature.

Financial Statement Crosswalks
    DFAS recorded accounting entries for about $224.7 billion to correct errors in
    the crosswalks that place financial data on the appropriate financial statement
    line. Financial management data are to be recorded and reported as required by
    OMB and U.S. Treasury guidance, to provide for full financial disclosure and
    accountability in accordance with appropriate budget and accounting principles
                                        6
and standards. As implemented in the DoD Regulation 7000.14, volume 6B,
“Form and Content of the Department of Defense Audited Financial
Statements,” the Treasury Financial Manual, Transmittal Letter No. S2-00-01,
“U.S. Government Standard General Ledger,” April 2000, establishes an
agency-wide financial information classification structure of the
U.S. Government Standard General Ledger to ensure consistency among report
crosswalks. In May and October 2000, DFAS personnel performed tests on the
AFS module, but the tests were incomplete. The data for the tests did not come
from the accounting systems, as they were to be used to compile the DoD
Agency-wide financial statement information. The crosswalk errors occurred
because DFAS did not adequately test the flow of financial statement data from
the accounting systems to the final financial statement production before the
AFS module was fielded. The entire financial statement data flow needed to be
tested with live data, as the data was going to be used on the financial
statements. Table 2 shows the accounting entities that made adjustments and the
value of adjustments made to the financial statement data because of crosswalk
errors.


                Table 2. Adjusting Accounting Entries
                             (in billions)
                      Entity                          Amount

Air Force General Fund                                      $ 7.7
Air Force Working Capital Fund                                 0.2
Army General Fund                                              0.7
Army Working Capital Fund                                     13.4
Navy General Fund                                              0.2
Navy Working Capital Fund                                      1.7
Other Defense Organizations General Fund                     200.8
 Total                                                      $224.7

As a result of the erroneous crosswalks, unnecessary accounting entries for
about $224.7 billion made the financial statement data unreliable. DFAS
personnel should run adequate tests with live data on the entire flow of financial
statement information before using new accounting systems to ensure
compliance with guidelines from the crosswalk in U.S. Treasury Letter No. S2-
00-01. DFAS should run these tests and correct the deficiencies before they
institute year-end processing. Testing will help to reduce the number of
accounting entries needed to correct errors.




                                     7
Conclusion
    DFAS made undocumented changes to the AFS module import spreadsheets by
    not creating a journal voucher. Regardless of the origin of the journal voucher,
    an adequate audit trail must be maintained. DFAS personnel also did not adhere
    to prescribed thresholds for determining the proper approving official
    established by DFAS in the journal voucher guidance. In addition, if DFAS ran
    tests with live data on the crosswalks before using new accounting systems, they
    would significantly reduce the number of accounting entries needed to correct
    errors. As a result, the FY 2000 DoD Agency-Wide Financial Statements
    contained unreliable financial data.

Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. We revised the draft Recommendation 1.a. to omit
    a requirement to prevent any manual changes to financial statement information
    into the AFS module from the trial balance and trading partner data.

    We recommend that the Director, Defense Finance and Accounting Service:

          1. Enforce existing Defense Finance and Accounting Service
    guidance on the preparation of journal vouchers and the thresholds of
    appropriate approval as it relates to the Defense Departmental Reporting
    System by:

                 a. Developing specific controls to ensure that all changes to
    accounting data are properly documented, regardless of origin.

    Management Comments. DFAS concurred and stated that it would emphasize
    the need to ensure all changes to accounting data are properly documented,
    regardless of origin, in its audited financial statement training for FY 2001.
    The training will be held no later than September 30, 2001.

    Audit Response. We consider the comments responsive to the recommendation
    and revised the recommendation to clarify our intent that DFAS develop specific
    controls to ensure all changes to accounting data are properly documented,
    regardless of origin. We revised the draft recommendation to omit “prevent
    manual changes to financial information into the AFS module from the trial
    balance and trading partner data.”

                 b. Modifying the Audited Financial Statements module to
    contain proper internal controls that distinguish signature codes in the
    journal voucher approval role and associates the signature code with the
    proper approval level.

    Management Comments. DFAS concurred and stated that the AFS module
    will be modified to identify any journal voucher where the approving official
                                        8
normally does not have the proper approval level for the journal voucher. The
necessary modification will be completed by September 30, 2001.

       2. Verify by testing the entire flow of financial statement
information to ensure crosswalk compliance in the Audited Financial
Statements module of the Defense Departmental Reporting System by using
live data and correct any deficiencies identified in the crosswalks prior to
the compilation season.

Management Comments. DFAS concurred in principle but stated that most
crosswalk errors were not internal to the AFS module. The centralized
accounting sites will verify their internal crosswalks to the AFS module prior to
the preparation of the FY 2001 financial statements. The verification will be
completed prior to October 31, 2001.

Audit Response. The DoD AFS financial reporting cycle starts with the
internal crosswalks operated by the centralized accounting sites but concludes
with the AFS module. Therefore, testing of the DoD AFS financial reporting
cycle must include both the centralized accounting sites and the AFS module.
However, because the intent of DFAS is to verify the centralized accounting
sites internal crosswalks from start to finish, we consider the comments
responsive.




                                    9
Appendix A. Audit Process

Scope
    The overall purpose was to determine whether the FY 2000 DoD Agency-Wide
    Financial Statements were presented fairly in accordance with OMB Bulletin
    No. 97-01. We reviewed the internal controls of the AFS module of the Defense
    Departmental Reporting System used to compile the FY 2000 DoD Agency-
    Wide Financial Statements. Specifically, we reviewed internal controls over the
    input of information in the AFS module. Also, we examined 705 of the
    3,320 journal vouchers produced in the AFS module. In addition, we reviewed
    the adequacy of the crosswalks in the AFS module.

    Accounting Principles. Agencies are required to follow the hierarchy of
    accounting principles outlined in OMB Bulletin No. 97-01, as amended. The
    hierarchy is as follows: standards agreed to and published by the Director,
    OMB, the Secretary of the Treasury, and the Comptroller General of the United
    States; interpretations of Statement of Federal Financial Auditing Standards
    issued by OMB; requirements for the form and content of financial statements
    outlined in OMB Bulletin No. 97-01, as amended; and accounting principles
    published by other authoritative sources.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate-level goal, subordinate performance
    goal, and performance measure:

             • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an
               uncertain future by pursuing a focused modernization effort that
               maintains U.S. qualitative superiority in key warfighting
               capabilities. Transform the force by exploiting the Revolution in
               Military Affairs, and reengineer the Department to achieve a 21st
               century infrastructure. (01-DoD-02)

             • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

             •    FY 2001 Performance Measure 2.5.2: Achieve unqualified
                                                      −DoD-2.5.2).
                 opinions on financial statements. (01−

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objective and
    goal.

                    Financial Management Area Objective: Strengthen internal
                    controls. Goal: Improve compliance with the Federal
                    Managers’ Financial Integrity Act of 1982. (FM 5.3)

                                      10
    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    We reviewed the internal controls over the inputting of trial balance data into
    the AFS module. We reviewed the approval process of journal vouchers to
    determine whether they were properly approved and the data were fully
    supported. We also reviewed the adjustments that were made in the AFS
    module to correct crosswalk errors caused by a mapping problem from the U.S.
    Standard General Ledger accounts to the financial statements. We tested
    crosswalk data from Air Force General Fund, Air Force Working Capital Fund,
    Army General Fund, Army Working Capital Fund, Navy General Fund, Navy
    Working Capital Fund, and the Other Defense Organizations General Fund. We
    attended AFS module testing in May and October 2000. We conducted
    meetings with DFAS personnel. In addition, we reviewed applicable guidance.

    Use of Computer-Processed Data. To achieve the audit objective, we relied
    primarily on computer-processed data in the AFS module of the Defense
    Departmental Reporting System produced by DFAS. We tested the data and
    determined that they were not complete. Field-level systems were not included
    in our review. However, when the data are reviewed in context with other
    available evidence, we believe that the opinions, conclusions, and
    recommendations in this report are valid.

    Audit Period and Standards. We performed this financial-related audit during
    the period May 2000 through March 2001 in accordance with auditing standards
    issued by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We included tests of management controls considered
    necessary. We did our work in accordance with generally accepted Government
    auditing standards except that we were unable to obtain an opinion on our
    system of quality control. The most recent external quality control review was
    withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Controls (MC)
    Program Procedures,” August 28, 1996, require DoD organizations to
    implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to evaluate the
    adequacy of the controls.

    Scope of Review of the Management Control Program. As part of our
    overall objective to determine whether the DoD Agency-wide financial
    statements were presented fairly, we also reviewed the internal controls of the
    AFS module of the Defense Departmental Reporting System used to compile the

                                       11
    FY 2000 DoD Agency-Wide Financial Statements. We also reviewed
    management’s self-evaluation applicable to those controls.

    Adequacy of Management Controls. A material management control
    weakness, as defined by DoD Instruction 5010.40, existed in the DFAS
    procedures for compiling the FY 2000 DoD Agency-Wide Financial Statements.
    Management controls at DFAS were not adequate to ensure that the automated
    processes used to compile financial statements were ready when necessary or
    that backup procedures were available. The control weaknesses identified and
    our recommendations for improvements are discussed in the Finding section.
    Recommendations 1.a., 1.b., and 2.; if implemented, will improve controls over
    the AFS module of the Defense Departmental Reporting System. A copy of the
    report will be provided to the senior official responsible for management
    controls at DFAS.

    Adequacy of Management’s Self-Evaluation. DFAS reported the general
    ledger and financial reporting as a material weakness, citing that the Financial
    Management Improvement Plan addressed system problems and fixes. The
    FY 2000 Financial Management Improvement Plan discloses that the Defense
    Departmental Reporting System is to be one of the fixes under development.
    The AFS module is the first part of the Defense Departmental Reporting System
    to be deployed. The FY 2000 Financial Management Improvement Plan did not
    disclose system fixes to correct the AFS material weaknesses addressed in this
    report. The USD(Comptroller) also acknowledged in its management
    representation letter for the FY 2000 DoD Agency-Wide Financial Statements
    that DoD financial management systems do not comply substantially with
    Federal accounting standards, Federal system requirements, and the
    U.S. Government Standard General Ledger at the transaction level.

Prior Coverage
    No prior audits have been performed on the Audited Financial Statements
    module of the Defense Departmental Reporting System. However, the General
    Accounting Office and the Inspector General, DoD, have conducted multiple
    reviews related to financial statement issues. General Accounting Office reports
    can be accessed on the Internet at http://www.gao.gov, and Inspector General,
    DoD, reports can be accessed on the Internet at
    http://www.dodig.osd.mil/audit/reports.




                                       12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                           13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intragovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement, Committee on Government
  Reform




                                       14
Defense Finance and Accounting Service
Comments




                   15
16
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector General,
DoD, who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Jack L. Armstrong
Paul C. Wenzel
Kara N. Brown
Kathleen A. Furey
Monica L. Noell
Lisa C. Rose-Pressley
